                                                             Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement—                           Date:    April 21, 2006
           New Haven Harbor Crossing Project
           Project Number: 06M3009M000
                                                                    Reply to   JA-40
  From:                                                             Attn of:



           Kurt W. Hyde
           Assistant Inspector General
            for Surface and Maritime Programs

    To:    Acting Federal Highway Administrator

           To evaluate recent issues with a major multi-modal transportation improvement
           project on Interstates 95 and 91 in Connecticut, the Office of Inspector General
           is initiating an audit of the New Haven Harbor Crossing Project (the Project).
           The objectives of this audit are to assess the: (1) causes and effects of cost
           increases, funding shortfalls, and schedule delays on the Project; (2) Connecticut
           Department of Transportation’s (ConnDOT) past and planned actions to manage
           these issues; and (3) Federal Highway Administration’s (FHWA) oversight and
           stewardship activities related to the Project.

           Over the past 8 years, the Project experienced noticeable cost increases and
           significant schedule delays. When the Project was authorized in 1998,
           ConnDOT estimated its cost at $974 million. However, the forecast cost
           estimate in the Project’s September 2005 Progress Report was $1.24 billion,
           although ConnDOT had identified only $1.05 billion in available funding.
           Further, the Project’s initial estimated completion date has been delayed by
           30 months because of setbacks associated with obtaining permits, resolving
           construction problems, and adhering to local requirements. For example, the
           construction of two critical components of the Project, a new Pearl Harbor
           Memorial “Q” Bridge and a reconfiguration of the interchange at Interstates 91
           and 95, has been subjected to numerous schedule changes that resulted in
           significant delays. In October 2005, FHWA Division Office officials decided
           not to release Federal funds for these two components until ConnDOT presents
                                                                              2

 an updated finance plan. It has been 28 months since an updated finance plan
 for the Project was submitted to FHWA.

 Our audit will assess ConnDOT’s cost estimating practices from the initial
 planning phase through the most current finance plan to determine whether
 ConnDOT adhered to FHWA’s guidance and to determine whether the estimated
 costs and schedule were realistic and supported. We will evaluate the current
 cost estimate to determine whether ConnDOT’s assessment is risk-based and
 whether it has been subjected to an independent cost validation. We will also
 evaluate ConnDOT’s State Transportation Improvement Plan and Long-term
 Capital Plan to determine whether sufficient funding has been identified to
 complete the Project. Finally, we will assess the actions ConnDOT and FHWA
 have taken to keep stakeholders informed of all critical issues.

 Our work will be conducted at FHWA Headquarters in Washington, D.C.,
 FHWA’s Connecticut Division Office, ConnDOT, and Connecticut Auditors of
 Public Accounts. We will contact FHWA’s audit liaison to schedule a formal
 entrance conference to discuss this audit. If you have any questions or need
 additional information, please contact me at (202) 366-5630 or Brenda R. James,
 Program Director, at (202) 366-0202.

                                      #


cc:   OST Audit Liaison, M-1
      FHWA Audit Liaison, HAIM-13
      AIG for Financial and Information Technology Audits, JA-20
